                          UNITED STATES DEPARTMENT OF EDUCATION 

                                           OFFICE OF INSPECTOR GENERAL 

                                     1999 BRYAN STREET, HARWOOD CE]\'TER, serrE 2630 

                                                DALLAS, TEXAS 75201-6817 

                                          PHONE: (214) 880-3031 FAX: (214) 880-2492 




                                                       FEB - 4 2003
Dr. Felipe Alanis
Commissioner of Education
Texas Education Agency
William B. Travis Building
1701 North Congress Avenue
Austin, Texas 78701-1494

Dear Dr. Alanis:

This Final Audit Report (Control Number ED-OIGI A06-C0030) presents the results of our
audit of the Migrant Education Program at the Texas Education Agency (TEA). The objectives
of our audit were to determine whether TEA and its sub-grantees (1) established and
implemented appropriate procedures to identify and target services to migratory children who are
failing or most at risk of failing to meet state standards and whose education has been interrupted
during the regular school year, and (2) established procedures to report to the Department the
number of "Priority for Services" migratory children in Texas. Our audit focused on the period
July 1,2000, through July 31,2002.

A draft to this report was provided to the Texas Education Agency. In its response, Texas
concurred with our recommendations. Texas' comments are summarized in the section that
follows the Recommendations. A copy of the complete response is enclosed with this report.



   II                                              BACKGROUND                                                                II 

The Elementary and Secondary Education Act (ESEA) of 1965, as amended, authorizes federal
funding of programs of education for migratory children. In Fiscal Year 2001, Texas recei ved
approximately $53 million in Migrant Education Program funds. A migratory child is a child
who is, or whose parent, spouse, or guardian is, a migratory agricultural worker, including a
migratory dairy worker or a migratory fisher. The No Child Left Behind Act of 2001 and the
Improving America's Schools Act of 1994 further specify that children who are failing, or most
at risk of failing, to meet the State's challenging content standards and challenging student
performance standards, and whose education has been interrupted during the regular school year
shall receive "Priority for Services."

In Texas, students who meet the definition of failing, or most at risk of failing, can be identified
using several factors-students who are not passing the state assessment, failing or making low
grades, or have been retained in the same grade more than one year. An interruption of
education is defined as a student moving from one school to another during the regular school



        Our mission is to promote the efficiency, effectiveness. and integrity of the Department's programs and operations
Dr. Felipe Alanis, Commissioner                                                         Page 2 of 6


year. Priority for Services means students who meet both criteria will receive Migrant Education
Program funded services before services are provided to other migratory children.

Table C-6 of the Consolidated State Performance Report, which is submitted to the Department’s
Office of Migrant Education for every award year, requires that States indicate the “count of
students served who have a priority for services under Section 1304 (d) of the ESEA (those
whose schooling has been interrupted and who are failing or at risk of failing to meet state
standards).”

On November 26, 2002, the Department issued final regulations for the No Child Left Behind
Act of 2001 governing the Migrant Education Program to, among other changes, require that
each State Education Agency determine the effectiveness of its program, particularly for those
students who have Priority for Services. These regulations are in response to the President’s
Management Agenda for Fiscal Year 2002 and the Department of Education’s Blueprint For
Management Excellence released October 30, 2001. One of the expected long-term results in the
President’s Management Agenda is better control over resources used and accountability for
results by program managers. The Department’s Blueprint describes one of the Department’s
commitments to management improvement as achieving an “Accountability for Results” culture.
Through the Blueprint, the recipients of Department funds will be held responsible for their
performance in relation to the goals and objectives.


                                     AUDIT RESULTS


TEA did not comply with Section 1304(d) of the Elementary and Secondary Education Act of
1965, as amended. Specifically, TEA did not establish and implement appropriate procedures to
identify and target Priority for Services to migratory children who are failing, or most at risk of
failing, to meet State standards, and whose education was interrupted during the regular school
year. As a result, TEA’s procedures did not provide assurance that migrant education funds were
allocated to sub-grantees based on the school’s population of migratory students with Priority for
Services; TEA was unable to report the number of Priority for Services migratory children
served in the Consolidated State Performance Report to the Department’s Office of Migrant
Education; and the U.S. Department of Education was unable to determine if Texas used the $53
million in Migrant Education Program funds it received for Fiscal Year 2001 for Priority for
Services migratory children before providing services to other migratory children.

TEA migrant education funding allocation procedures to its sub-grantees were not based on
identified Priority for Services migratory children to be served. TEA provided additional
migrant education funds to sub-grantees for migratory students who were overage students in
grades 7 through 12 and additional funds for migratory children with a qualified migratory move
during the preceding 12 months. TEA did not require that migratory students meet both Priority
for Services criteria in order for the sub-grantee to receive additional migrant education funding.
Dr. Felipe Alanis, Commissioner 	                                                         Page 3 of 6


Even though TEA funding decisions were not based on accurate identification of the Priority for
Services children, we visited four sub-grantees and found that three of the four had procedures in
place to properly identify and target migratory children for Priority for Services. Two sub-
grantees used state test scores and an interruption in the child’s education during the preceding
12 months to identify students as Priority for Services. Another sub-grantee reviewed the most
recent mobile report (moved in the last 12 months) and also considered those students’ grades.
The fourth sub-grantee only used the most recent mobile report to identify migratory students for
Priority for Services.

Additionally, we found that neither TEA nor its sub-grantees established procedures to report to
the Department the number of Priority for Services migratory children in Texas. Table C-6 of
the Consolidated State Performance Report, which is submitted to the Department’s Office of
Migrant Education for every award year, requires that States indicate the “count of students
served who have a priority for services under Section 1304 (d) of the ESEA (those whose
schooling has been interrupted and who are failing or at risk of failing to meet state standards).”
In its most recent Consolidated State Performance Report, TEA reported to the Department that,
“this count is not collected at the state level by the MEP (Migrant Education Program) and
therefore cannot be submitted. Migrant funded districts are required to collect and maintain this
data at the local level for program planning purposes.”

These conditions occurred because TEA (1) relied upon its sub-grantees’ assurances that they
were providing services to Priority for Services children first before other migratory children,
and did not perform independent monitoring of the sub-grantees to ensure services were
provided; (2) did not provide clear guidance to the sub-grantees as to the definition of at risk of
failing State standards and whose education has been interrupted during the regular school year;
and (3) did not require the schools, school districts, or sub-grantees to report the number of
Priority for Services migratory students for 2000 and 2001. Although TEA required the sub-
grantees to maintain this information for program planning purposes, they did not require the
sub-grantees to submit the information. We also determined that the sub-grantees did not
maintain the detailed information on the number of Priority for Services migratory children.
Neither TEA nor sub-grantees could obtain this information from any individual source in a
manner that would avoid possible duplicate student counts.


                                  RECOMMENDATIONS


We recommend that the Assistant Secretary for the Office of Elementary and Secondary
Education require TEA to:

1.1 	 Monitor sub-grantees to ensure funds are used for Priority for Services migratory children
      before funds are used for other migratory children.

1.2 	 Provide a clear definition to all sub-grantees of what constitutes at risk of failing State
      standards and whose education has been interrupted during the regular school year.
Dr. Felipe Alanis, Commissioner 	                                                     Page 4 of 6


1.3 	 Establish procedures to identify and report to the Department the number of Priority for
      Services migratory children served in Texas schools.



           TEXAS EDUCATION AGENCY’S COMMENTS TO THE 

                         DRAFT REPORT


Texas officials agreed with our findings and recommendations. They stated that the report
identifies areas of improvement and that they will diligently pursue implementing the
recommendations.


                  OBJECTIVE, SCOPE, AND METHODOLOGY


The objectives of our audit were to determine whether TEA and its sub-grantees (1) established
and implemented appropriate procedures to identify and target services to migratory children
who are failing or most at risk of failing to meet state standards and whose education has been
interrupted during the regular school year, and (2) established procedures to report to the
Department the number of Priority for Services migratory children in Texas.

To accomplish our objectives, we:

          Reviewed TEA’s and its sub-grantees’ policies and procedures for providing services
           to migratory children.
          Interviewed TEA and sub-grantee officials regarding their procedures for providing
           Priority for Services to migratory children.
          Reviewed the Texas State Single Audit Report for 2001 and other reviews performed.
          Reviewed applicable laws, regulations, and other guidance.
          Reviewed the sub-grantees’ documentation regarding the Priority for Services
           provided to migratory children.
          Reviewed TEA’s and the sub-grantees’ decision-making process for allocating
           migrant education funds.

Computer-processed data from the Department of Education’s Office of Migrant Education was
used to select Texas to visit. Computer-processed data was also obtained from TEA and
analyzed for sub-grantees to visit. This information was not used for projection, or to make any
determinations. There was no need for a reliability assessment of the computer-processed data.

Our audit of Texas’ Migrant Education Program covered the period July 1, 2000, through July
31, 2002. We performed on-site fieldwork from July 15-19, 2002, at TEA’s office in Austin, and
at four sub-grantees from July 26-31, 2002. We selected two of the largest sub-grantees in Texas
Dr. Felipe Alanis, Commissioner                                                       Page 5 of 6


at the request of the Office of Migrant Education. We also selected two other sub-grantees in the
Dallas area. The sub-grantees visited were Region X Educational Service Center, Richardson,
Texas; Dallas Independent School District; Weslaco Independent School District; and
Brownsville Independent School District. We discussed our results with Texas officials on July
19, 2002, and September 10, 2002. An exit conference was held with Texas officials on October
16, 2002. Our work was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the audit described above.



                 STATEMENT ON MANAGEMENT CONTROLS 


As part of our review, we assessed the system of management controls, policies, procedures, and
practices applicable to TEA’s administration of the Priority for Services portion of the Migrant
Education Program. Our assessment was performed to determine whether TEA had management
controls established to ensure Priority for Services migratory children received services before
services were provided to other migratory children.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed that TEA had not developed and implemented written
procedures to ensure that sub-grantees identified, targeted, and counted migratory children that
should be served first through the Migrant Education Program. As a result, we concluded that
TEA did not have sufficient management controls to ensure that sub-grantees complied with the
requirements of Section 1304(d) of the Elementary and Secondary Education Act of 1965, as
amended. The AUDIT RESULTS section of the report provides details on our finding.


                            ADMINISTRATIVE MATTERS


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following U.S. Department of
Education official, who will consider them before taking final Departmental action on the audit:

                      U.S. Department of Education
                      Office of Elementary and Secondary Education
                      400 Maryland Avenue, SW
                      Room 3W315, FB6 Building
                      Washington, D.C. 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, we request receipt of your comments within 30 days.
Dr. Felipe Alanis, Commissioner                                                         Page 6 of 6


In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

If you have any questions or wish to discuss the contents of this report, please contact me at 214­
880-3031. Please refer to the control number in all correspondence related to this report.

                                                     Sincerely,

                                                     f.--~~
                                                 jc. Sherri L. Demmel
                                                     Regional Inspector General
                                                     for Audit Services

Attachment
                                                                                                                             ATTACHMENT

                            TEXAS EDUCATION AGENCY 

                            170 I :'-iorth Congress Ave.   * All·nin. Texas 7R701-1494 * SI2!463-lJ734 * FAX: SI2i46.~-%38 * http://vvw\\.le,ulate.tx.us

  Felipe T. Alanis
Commissioner 0: Education



               January 16, 2003

               Sherri Demmel, Regional Inspector General for Audit 

               United States Department of Education 

               Office of the Inspector General 

               1999 Bryan St, Suite 2630 

               Harwood Center 

               Dallas, Texas 75201-6817 


                Dear Ms. Demmel:

               This letter is in response to the U.S.D.E. Office of the Inspector General Draft Audit
               Report (Control # ED-OIG/A06-C0030) dated December 17, 2002.               The Texas
               Education Agency (TEA) staff concurs with the findings and the recommendations as
               stated in the draft document. The following describes the corrective actions that have
               already been taken and/or those which will be implemented and the targeted completion
               dates.

        1.1 	 Monitor subgrantees to ensure funds are used for Priority for Services migrant
              children before funds are used for other migrant children.
              Management Response: Agreed.
              In order to proactively monitor subgrantees to ensure that funds are used for Priority for
              Services migrant children before funds are used for other migrant children, the Texas
              Migrant Education Program (MEP) proposes to implement a variety of procedures for
              the 2003-2004 school year that incorporate preventative, observational, evaluative and
              reporting activities by TEA, the regional Education Service Centers (ESCs) and the
              MEP-funded districts in order to ensure compliance and to enhance "Priority for
              Services" student success.
              Completion Date: The initial phase will be completed by June 2004. A continuous
              improvement cycle will be implemented to refine the system on an ongoing basis as new
              data is acquired.

         2.1 	 Provide a clear definition to all subgrantees of what constitutes ·'at risk of failing
               State standards" and "whose education has been interrupted during the regular
               school year."
               Management Response: Agreed.
               The Texas MEP has clearly defined to subgrantees what constitutes "at risk of failing
               State standards" and "whose education has been interrupted during the regular school
               year." The Division of Migrant Education has worked directly with the Office of Migrant
               Education (OME) in Washington, D.C. defining "Priority for Services" migratory students.
               NGS Priority for Services reports are currently available on the NGS system.
               Completion Date: Completed as of September 1,2002.



                                            Fullillim? the Promise for All Texas Children
                                                                           ATTACHMENT 




 Sheri Demmel 

 United States Department of Education 

 Page 2 



3.1 	 Establish procedures to identify and report to the Department the number of
      Priority for Service migrant children served in Texas schools.
      Management Response: Agreed.
      The Texas MEP has established written procedures to identify and report to the
      Department the unduplicated number of Priority for Service migrant children identified
      through its migrant education program. Beginning September 1, 2002 the Priority for
      Services report was made available on the New Generation System. These procedures
      were implemented in submitting the 2001-02 Category 1 and Category 2 Child Counts to
      the Office of Migrant Education in December 2002.
      Completion Date: Completed as of September 1, 2002.

     The Texas Education Agency appreciates the work performed by the Regional Inspector
     General in bringing matters to our attention that need to be addressed. The report
     identifies areas of improvement and the Agency will diligently pursue implementing the
     recommendations. Thank you.




     J~,,{
         J

     Felipe Alanis
     Commissioner of Education 

                         REPORT DISTRIBUTION LIST 

                        CONTROL NO. ED-OIG/A06-C0030 


Auditee                                             ED Action Official

Dr. Felipe Alanis                                   Assistant Secretary
Commissioner of Education                           Office of Elementary and
Texas Education Agency                              Secondary Education
William B. Travis Building
1701 North Congress Avenue
Austin, Texas 78701-1494

                            Other ED Officials/Staff (electronic copy)

Delores Warner                                      Jack Martin
Audit Liaison Officer                               Chief Financial Officer

Philip H. Rosenfelt                                 Clay Boothby, Acting DAS
Office of General Counsel                           Legislation and Congressional Affairs

William D. Hansen                                   Laurie M. Rich, AS
Deputy Secretary                                    Intergovernmental and Interagency Affairs

John Danielson                                      Michelle Douglas and Carolyn Adams
Chief of Staff                                      OGC (Correspondence Control)

Eugene Hickok                                       L’Wanda Rosemond
Under Secretary                                     General Operations Team, OIG

John Gibbons                                        Charles Miller
Director, Communications                            Post Audit Group, OCFO

                                                    Headquarters and Regional Audit Managers
